November 19, 2003

MEMORANDUM
FOR:           USAID/Bulgaria, Mission Director, Debra McFarland

FROM:          Regional Inspector General/Budapest, Nancy J. Lawton /s/

SUBJECT:       Report on Audit of USAID/Bulgaria’s Participant Training Activities
               (Report No. B-183-04-001-P)

This is our final report on the subject audit. We reviewed your comments to our
draft report and included them as Appendix II to this report.

In summary, the report recommends that USAID/Bulgaria (1) establish and follow
procedures on individual application data, (2) conduct periodic management reviews
of its participant training implementing contractor, and (3) develop and document
mission-specific guidance for mission staff and contractors involved in participant
training and visa applications.

Based on our evaluation of your comments to our draft report and all supporting
documentation provided, we consider that final action has occurred on
Recommendation Nos. 1, 2, and 3.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                                 1
(This Page Intentionally Left Blank)




                                       2
Table of   Summary of Results.................................................................................................5
Contents
           Background ..............................................................................................................6

           Audit Objectives ......................................................................................................7

           Audit Findings .........................................................................................................7

                      Has USAID/Bulgaria complied with selected requirements for
                      administering participant training conducted in the United States?........... 7

                                 Approval Procedures for Participant Trainees Should Be
                                 Strengthened to Meet the New 2003 Guidelines .............................8

                                 Management Oversight of the Participant Training Program
                                 Should Be Improved ........................................................................9

                      What have been the non-returnee rates from USAID/Bulgaria
                      participants who were trained in the United States and did
                      USAID/Bulgaria take appropriate actions when participants failed
                      to return to their home countries? .............................................................11

                      What additional actions should USAID/Bulgaria take to meet new
                      requirements for selecting, monitoring, and reporting on participants
                      training in the United States?.....................................................................12

                                 Mission Participant Training Guidance Should Be Revised to
                                 Reflect Current Requirements........................................................12

           Management Comments and Our Evaluation ........................................................15

           Appendix I - Scope and Methodology ...................................................................17

           Appendix II - Management Comments..................................................................19

           Appendix III - USAID's J-1 Visa Application Process Flowchart ........................21




                                                                                                                                   3
(This Page Intentionally Left Blank)




                                       4
             As part of a worldwide audit, we sought to determine USAID/Bulgaria’s
Summary of   effectiveness in complying with visa requirements. This was accomplished by
Results      verifying compliance with requirements for participant training conducted in the
             United States, ascertaining if there were difficulties with participants not returning
             from the United States after the completion of their training, and determining if
             there were additional actions that could be taken to facilitate meeting the new
             requirements for participant training in the United States. (See pages 7, 11, and
             12.)

             The Immigration and Naturalization Service (INS - now the Bureau of Citizenship
             and Immigration Services) recently issued regulations requiring that sponsors of
             foreign students to the United States use its newly implemented Student Exchange
             and Visitor Information System (SEVIS) database to apply for and obtain the
             required J-visas to attend training in the United States. This new federally
             mandated foreign student database is intended to account for the status of all
             foreign students in the United States. The new INS regulations will also require
             USAID/Bulgaria (and all USAID missions) to more actively manage its
             participant trainees selected for training in the United States. (See page 6.)

             USAID/Bulgaria has implemented measures to comply with the new visa
             regulations and policies.      However, USAID/Bulgaria can improve the
             effectiveness of its program in several areas. Such areas include strengthening
             procedures for participant trainee approval in the visa database, monitoring
             performance of its participant training contractor, and issuing new Mission
             guidance to address the new visa application process and responsibilities. (See
             pages 8, 9, and 12.)

             This audit report includes three recommendations to help USAID/Bulgaria
             strengthen its participant training program. (See pages 9, 11, and 14.)

             USAID/Bulgaria agreed with the three recommendations. Based on the Mission’s
             comments to our draft report and the documentation provided, we determined that
             final action has been taken on Recommendation Nos. 1, 2, and 3. (See page 15.)




                                                                                                 5
Background   Each year USAID’s participant training programs send approximately 6,000
             people to the United States.1 According to USAID, “participants” may be host
             country residents or foreign nationals who take part in a structured learning
             activity. Participant training is defined as either short-term or long-term training
             (nine months or more) which may include a range of learning activities such as
             study tours, observational tours, conferences, or academic training. USAID’s
             participant training program activities are designed to expose trainees to outside
             expertise and ideas that can be taken back to the home countries to advance
             development efforts. USAID/Bulgaria’s participant training program in the
             United States has covered a wide range of subjects including rural and ecotourism
             development, judicial court administration, banking and finance regulation, and
             local and municipal governance.

             As a result of homeland security concerns, U.S. Government agencies are giving
             increased attention to all visitors to the United States–including those attending
             USAID participant training activities. In addition, the INS and Department of
             State regulations have established more specific procedures for issuing J-visas,2
             monitoring exchange visitors, and recording various status changes such as new
             addresses and altered course loads. (Please see Appendix III for a flowchart of
             the new visa approval process to be used by USAID.)

             The INS developed a database known as the Student and Exchange Visitor
             Information System (SEVIS), which was to be used by all J-visa sponsors by
             February 15, 2003. SEVIS is used, in part, to process requests for J-visa
             applications and electronically transmit approvals. With timely input of accurate
             data, SEVIS is designed to track the status and location of all foreign students
             participating in training in the United States who entered the country using the J-
             visa.

             During the period FY 2000 through 2003, USAID/Bulgaria and its training
             contractor sent almost 600 participant trainees to attend training in the United
             States. According to data provided by USAID/Bulgaria, 157 and 190 trainees
             were sent to the U.S. for training in years 2000 and 2001, respectively. Current
             data shows that during fiscal year 2002 alone, the Mission expended
             approximately $1.7 million for 546 participants on 70 sponsored training
             activities in the U.S., Bulgaria, and other countries. During this FY 2002 period,
             approximately 195 participant trainees attended training in the U.S. In addition,
             USAID/Bulgaria has processed 27 new participant trainee visa applications since
             the new visa application requirements became effective.




             1
              Participant training can also be conducted in-country, or in a third country.
             2
               J-visas are non-immigrant visas for foreign nationals who have been selected by a sponsor
             designated by the United States Department of State to participate in an exchange program in the
             United States.


                                                                                                           6
Audit Objectives This audit was conducted at USAID/Bulgaria as a part of a worldwide audit of
                    USAID’s participant training activities led by the Office of Inspector General’s
                    Performance Audit Division. It is one of six audits that were planned to be
                    conducted this fiscal year by each of USAID’s Regional Inspectors General.

                    This audit was designed to answer the following objectives:

                    •   Has USAID/Bulgaria complied with selected requirements for administering
                        participant training conducted in the United States?

                    •   What have been the non-returnee rates from USAID/Bulgaria participants who
                        were trained in the United States and did USAID/Bulgaria take appropriate
                        actions when participants failed to return to their home countries?

                    •   What additional actions should USAID/Bulgaria take to meet new requirements
                        for selecting, monitoring, and reporting on participants training in the United
                        States?

                    Appendix I contains a discussion of the scope and methodology for this audit.



 Audit Findings     Has USAID/Bulgaria complied with selected requirements for administering
                    participant training conducted in the United States?

                    USAID/Bulgaria generally complied with selected USAID requirements for
                    participant training activities in the United States. However, the Mission needs to
                    strengthen two areas of its participant training program for a fully compliant and
                    effective program.

                    The Mission generally followed selected USAID requirements such as the use of
                    USAID’s Training Results and Information Network (TraiNet) database system to
                    collect participant trainee information, medical certification of long-term
                    participants, attainment of required health and accident insurance and the use of J-
                    visas. In addition, the Mission’s training program implementing contractor
                    developed procedures to ensure that required participant trainee documentation
                    for visa applications are obtained to permit travel to and training in the United
                    States.

                    However, there were two areas were the Mission did not always follow selected
                    USAID requirements. The two major areas of non-compliance were: (1)
                    independent review and verification of participant trainee information in the
                    database system were not being conducted in compliance with the new 2003
                    guidance, and (2) the Mission was not periodically conducting and documenting
                    management reviews of its training program implementing contractor.


                                                                                                      7
Approval Process for Participant Trainees
Should Be Strengthened to Meet the
New 2003 Guidance

Although USAID’s new visa guidance requires an independent review and
verification of each training participant’s information in the Visa Compliance
System (VCS), USAID/Bulgaria’s process did not comply with Agency
guidance.3 As a sponsoring unit, the Mission did not follow proper procedures to
approve participant trainee visa applications in the Agency’s electronic database.
Instead, the Mission relied on informal data provided by its implementing
contractor, World Learning Bulgaria, and did not verify the legitimacy of each
participant independently using acceptable documentation.

USAID’s Complete Guide to Visa Compliance (“Guide”), published in April
2003, requires that a USAID Mission Approver4 confirm the legitimacy of each
training participant and approve each training course. Furthermore, the “Guide”
requires that this be done using the original, scanned, or faxed copy of a passport
face page, a training request, and a participant selection document. A
USAID/Bulgaria staff member is required to review and verify this information
before the information is transmitted to USAID/Washington via USAID’s Visa
Compliance System (VCS). Once USAID/Bulgaria forwards the visa application
data through the VCS, USAID/Washington staff submits the application to SEVIS
for the INS review and approval. If approved, the visa application is then
returned to USAID/Bulgaria for final processing through the U.S. Embassy. By
using the SEVIS database, USAID can, among other things, allow the U. S.
Government to track the status and location of its foreign students and trainees
who have entered the United States on a J-visa.

USAID/Bulgaria did not independently verify the legitimacy of its participant
trainees or review or compare the source documentation against information in its
training database. Instead, the Mission relied on data that World Learning
Bulgaria emailed to the Mission. As a result, the Mission did not perform an
independent verification of the data that the contractor entered into the Mission’s
electronic database system before the information was forwarded to
USAID/Washington and ultimately to the INS. This lack of independent
verification diminished the effectiveness of the Mission’s internal controls
designed to ensure the integrity of the data that USAID and other U. S.
Government agencies would monitor.

The USAID/Bulgaria Approver was generally aware of the requirements to

3
  The VCS is a secure, web-based system, developed to take data from USAID’s TraiNet system,
and through a series of verifications and approvals, ensure that it is accurate and valid. This
secure system then interfaces directly with SEVIS to submit data as required.
4
  The USAID Mission Director appoints a USAID employee who is a U.S. citizen as an R3-
Approver (Mission Approver) to help ensure the integrity of the system.



                                                                                             8
confirm each participant trainee and all proposed training in the VCS before the
visa application was transmitted to USAID/Washington for submission to SEVIS.
However, USAID/Bulgaria had not fully implemented these requirements because
officials were unaware of the specific requirements and approval process to be
used to verify and approve each participant trainee in the VCS.

The lack of an independent review and approval of participant data increases
USAID’s vulnerability that a training participant who is unknown to
USAID/Bulgaria officials could receive the Mission’s approval of a J-visa and
travel to and enter the U.S. for training. Without valid verification and review of
source documentation before a participant is approved for training and included in
the Agency’s information database, the Mission cannot be assured of the
legitimacy of each participant trainee for whom it submits an electronic J-Visa
application.

During the audit, the Mission modified their approval procedures to meet the
requirements of the guidance. This modified procedure included verifying the
legitimacy of each participant in the VCS using the required documentation for
reference and support for approval. However, the staff member who verified and
approved participant trainees has since departed for another assignment. In
addition, the normal cycle of personnel departures, rotations, and leave add to the
difficulty of consistently employing new procedures in a mission. Therefore, to
ensure continued management attention and consistent application of Agency
policy, we are making the following recommendation:

       Recommendation No. 1:            We recommend that
       USAID/Bulgaria establish and follow procedures to
       ensure that individual application data is independently
       reviewed, approved and confirmed in accordance with
       USAID/Washington guidance.


Management Oversight of the
Participant Training Program
Should Be Improved

USAID’s Automated Directives System (ADS) provides guidelines on managing,
tracking, and reporting on program effectiveness and results. However, the
Mission had not conducted sufficient periodic reviews or retained its
documentation of performance reports or evaluations of its implementing
contractor to ensure that the contractor was in compliance with participant
training visa application requirements.

USAID has published two directives in its Automated Directives System–ADS
253 and 596–that provide guidance and required procedures regarding the
implementation of training programs and policy directives to improve the
management accountability and effectiveness of the Agency’s programs. ADS


                                                                                 9
253.5.2b requires sponsoring units to plan, track, and manage for results, as well
as report on training activities as a part of a broader performance measurement,
evaluation, and reporting requirement. ADS 596.3.1c stresses that managers
should employ control activities that, among other functions, ensure that activities
are effective and efficient at the functional and activity levels and that control
exist over information processing.

Furthermore, USAID published ADS 502 that provides Agency officials with
guidance regarding the management of records. Specifically, ADS 502 includes a
schedule that provides disposal and retention guidance for specific types of
records in USAID at all organizational levels. As indicated by this schedule,
report files keep a record and explanation of the progress of a specific activity.
These reports are usually completed at regular intervals during the life of the
activity and include evaluations and performance reports, annual progress reports,
and trip reports. In accordance with the Agency’s document disposal guidance,
USAID officials are required to retain these types of records for at least three
years after the close of the activity before they transfer them to offsite storage for
an additional six years. Unless such reviews are documented and retained in
accordance with ADS policy, adequate long-term oversight and management of
programs can be adversely affected.

USAID/Bulgaria contracts with only one firm, World Learning, to assist in
implementing its training program. Staff of the World Learning office in Bulgaria
work closely with Mission personnel on ongoing projects and they collaboratively
plan training to support the Mission’s programs. World Learning provides a
number of services to USAID/Bulgaria including developing training programs,
securing bids from training providers, reviewing proposals, screening participant
candidates, assisting selected trainees through the process of obtaining J-1 visas
and travel documents, and entering participant trainee data into the TraiNet
system.

Although the participant training program contractor’s files contained the required
participant documentation,5 USAID/Bulgaria had not periodically monitored and
documented performance and compliance reviews of the contractor and its work.
Even though USAID/Bulgaria relied on World Learning and its local Bulgaria
office to implement its training program, the Mission could provide
documentation of the contractor’s participant training program activities for only
one review (in March 2003). Mission officials stated that they had performed
such reviews periodically and provided one documented performance review
report. However, because a request came out calling for the deletion of older
files, they had deleted documentation of other performance reviews and could not
provide any additional reports.



5
 Participant documentation included medical certifications, English language proficiency reports,
health coverage policies, and tax identification numbers.



                                                                                              10
Without conducting periodic management reviews to verify the accuracy of
contractor’s performance, USAID/Bulgaria cannot be assured that the contractor
was in compliance with all participant training program requirements. Moreover,
USAID/Bulgaria cannot be assured that data the contractor provided–that the
Mission used to plan, manage, and report on its participant training program
activities–was either accurate or in compliance with requirements. Without this
assurance, USAID/Bulgaria exposed its programs to the possibilities of increased
program costs that would be incurred by the Mission should a management
oversight occur as a result of improprieties regarding items such as medical
coverage and tax identification.        Furthermore, such reviews should be
documented and retained to allow consistent and ongoing management of
contractor performance and program activity progress.

       Recommendation No. 2: We recommend that
       USAID/Bulgaria conduct periodic management reviews
       of its participant training implementing contractor and
       maintain written documentation of these reviews in
       accordance with Agency guidance.


What have been the non-returnee rates from USAID/Bulgaria participants
who were trained in the United States and did USAID/Bulgaria take
appropriate actions when participants failed to return to their home
countries?

According to data records provided by USAID’s Bureau for Economic Growth,
Agriculture and Trade (EGAT), USAID/Bulgaria had only one participant trainee
who did not return to Bulgaria following training held in the U.S (“non-returnee”)
in 1995. USAID/Bulgaria officials and their contractor concurred with this figure
and that the Mission was not having problems with participant trainees returning
to their home country, as required, immediately following the conclusion of U.S.
based training. The Mission’s training contractor monitors participants when they
start training, when they arrive in the U.S., and follows up on participants by
contacting them after their return. They also contact the trainees several weeks
after the training program has been completed to see how the training has
impacted the way they do their jobs and for any successes related to how the
training has benefited them.

Both USAID/Bulgaria and World Learning Bulgaria officials believe that the
strong return rate for Bulgarian participant trainees is correlated to the participant
trainee selection process and caliber of selected trainees. USAID/Bulgaria, in
collaboration with World Learning Bulgaria, historically has selected participants
who have demonstrated a commitment to the area of training to be received.
Mission officials stated that the people selected by USAID/Bulgaria and their
contractor are not chosen in a haphazard manner; they are chosen because they
are integral to the success of the activity and are qualified in their own specialties.
When combined together, each one of these individuals adds their particular


                                                                                    11
knowledge and viewpoint to the mix, creating a more effective team to address
the particular objective.

USAID/Bulgaria’s Mission Order No. 504, entitled Program Funded Training,
requires that all returning participants must be assured of a job. Furthermore, the
guidance states USAID/Bulgaria officials should not request training unless the
Mission has assurance that the prospective trainee will have post-program
employment.

USAID/Bulgaria’s participant training program is an important approach by
which the Mission addresses its strategic objectives. To achieve success, the
Mission selects trainees whose specific skills and knowledge, when combined
with additional Mission sponsored training, will further the attainment of a
specific strategic objective. As a positive consequence, USAID/Bulgaria’s
selection of participant trainees resulted in a low level of risk that a participant
would not return to Bulgaria after attending training in the United States.

Local national Bulgarian participant trainees, as professionals within the local
Bulgarian community, have traditionally held high-level positions in such areas as
government, law, and higher education. Both USAID/Bulgaria and World
Learning Bulgaria officials have attributed part of their success with non-
returnees to the selection of participant trainees who recognize and accept the
importance of their roles in the reform, technical assistance, and development of
Bulgaria.

Because there were no problems found regarding non-returnees from
USAID/Bulgaria participant training activities, we are making no
recommendations.

What additional actions should USAID/Bulgaria take to meet new
requirements for selecting, monitoring, and reporting on participants
training in the United States?

USAID/Bulgaria has not revised the Mission’s participant training guidance to
reflect new USAID instructions for obtaining J-1 visas and monitoring various
aspects of the program. Although the Mission has begun to draft an update of its
Mission order to address the administration of its participant trainee program,
USAID/Bulgaria officials have not developed interim guidance that addresses the
new regulations and requirements to ensure that its staff is using the most current
guidance and is complying with Agency requirements.

Mission Participant Training Guidance
Should Be Revised to Reflect Current Requirements

Although USAID/Bulgaria officials had begun to draft a Mission Order to address
the new participant training and visa requirements, the officials had not issued any
interim directives to ensure that all USAID/Bulgaria staff are aware of and


                                                                                 12
comply with the new requirements. The Mission’s current guidance does not
include all of the necessary Mission-specific guidance that the staff and contractor
need to become fully compliant with USAID requirements.

On January 10, 1997, USAID/Bulgaria issued Mission Order 504 as guidance for
its program funded training that contained instructions on the participant training
process, procedures, and staff responsibilities to conduct participant training.
However, new policies and regulations have changed participant training
management workflow and requirements, which are not addressed under the
Mission’s existing 1997 guidance. For example, USAID/Bulgaria’s existing
Mission Order makes no mention of the new procedures to be used by the Mission
Approver when verifying participant trainees for approval of visa applications
(see page 8).

The new visa regulations and requirements took effect in February 2003, and
USAID is revising ADS 253, Training for Development, to provide updated
policies governing the implementation of training programs. However, during
this interim period prior to approval of a revised ADS, the Mission has issued
neither an interim Mission Notice nor a Mission Directive providing guidance to
staff on current Mission policies and procedures that would ensure compliance
with the new visa requirements until the new ADS policy is completed. Mission
officials stated that since visa requirements had been constantly changing, the
management had preferred to wait in finalizing an updated Mission Order until
the completion of the Agency’s revised and approved ADS guidance.6

A well-defined Mission Order or Directive regarding the Mission’s participant
training program helps to ensure consistency in the application of mission policy
and regulations. The lack of an updated Mission Order or Mission Directive
addressing the new visa regulations and requirements could result in practices and
procedures that do not comply with USAID’s new participant training regulations.
This becomes especially important when considering the staffing changes that
result from personnel rotations and reassignments. Mission-specific guidance on
participant training should be documented to ensure that staff and contractor roles,
responsibilities, and expectations are made known to all participant training team
members.

We understand that the Mission wants to wait until the Agency’s policies are
formalized in a revised and approved ADS before completing their own updated
Mission Order. However, due to the current atmosphere surrounding national
security in the United States and USAID’s responsibilities as sponsors of foreign
nationals in the United States, it is important to keep personnel abreast of all
current requirements and policies regarding participant training and visa
regulations. Accordingly, we are making the following recommendation:

6
  USAID/EGAT continues to develop a revised version of ADS 253, Training for Development,
that will provide policies governing the implementation of training programs.



                                                                                      13
Recommendation No. 3: We recommend that
USAID/Bulgaria develop and document Mission-
specific guidance that clearly defines the roles,
responsibilities, and procedures for Mission staff and
contractors involved in participant training and visa
applications.




                                                         14
Management       In response to our draft audit report, USAID/Bulgaria provided written comments
Comments and     that are included in their entirety as Appendix II. The Mission stated that it
                 agreed with all three recommendations and provided additional documents
Our Evaluation   establishing the actions they have taken to address the findings and subsequent
                 recommendations.

                 In addressing Recommendation No. 1, the Mission modified its approval and
                 confirmation procedures for trainee data in USAID’s electronic database during
                 the audit to meet the new requirements as soon as possible. Following the audit,
                 the Mission documented these new procedures and assigned appropriate
                 responsibilities. The new procedures include an independent review, approval
                 and confirmation of participants’ data by Mission Approvers that is based on
                 hardcopies of relevant documents. In addition, it states that the Mission’s
                 Training Officer is now responsible for filing these participant documentation
                 packages and for maintaining a new spreadsheet tool that is to be used in tracking
                 the status of USAID/Bulgaria trainees.

                 To address Recommendation No. 2, the Mission provided a revised Mission
                 Order that specifies the process and responsibilities for conducting periodic
                 management reviews of training contractors and properly documenting such
                 reviews. The new Mission Order states that the Mission Training Officer is
                 responsible for training activities and its oversight. The Mission Order further
                 states that at least quarterly site visits and management reviews will take place to
                 ensure program implementation and compliance with guidance. Spot checks of
                 randomly selected participant files will be conducted to ensure compliance with
                 regulations and visa requirements. Furthermore, all such visits will be
                 documented in writing and filed. The Mission’s response also included a copy of
                 the latest training contractor site visit report to demonstrate the level of
                 management review now conducted.

                 Regarding Recommendation No. 3, the Mission revised its existing Mission Order
                 to reflect the current participant training and visa guidance. This new Mission
                 Order provides guidance as to the roles, responsibilities, and procedures for
                 Mission staff and participant training implementers that are involved in the
                 Mission’s participant training program and the visa application process.

                 We reviewed and assessed the comments, actions, and documents provided by
                 USAID/Bulgaria and consider that final action has been taken on all three
                 recommendations.




                                                                                                  15
(This Page Intentionally Left Blank)




                                       16
                                                                                     Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Budapest conducted this audit in accordance with
              generally accepted government auditing standards. This audit was designed to
              answer the following three audit objectives: (1) Has USAID/Bulgaria complied
              with selected requirements for administering participant training conducted in the
              United States? (2) What have been the non-returnee rates from USAID/Bulgaria
              participants who were trained in the United States and did USAID/Bulgaria take
              appropriate actions when participants failed to return to their home countries? (3)
              What additional actions should USAID/Bulgaria take to meet new requirements
              for selecting, monitoring, and reporting on participants training in the United
              States?

              The audit fieldwork was conducted between May 19 and July 3, 2003, in Sofia,
              Bulgaria. The audit covered the period from fiscal year 2000 through 2003 during
              which USAID/Bulgaria and its training contractor processed 592 participant
              trainees. The span of the audit also included assessments of management controls
              employed by the Mission and the contractor to administer the participant training
              program. The management controls reviewed during the course of the audit
              included an assessment of supervision of both Mission and contractor personnel,
              the separation of key duties and responsibilities among Mission and contractor
              staff, availability of clearly documented reports of all significant events, and the
              Mission’s fiscal years 2000- 2003 self-assessments of its management controls.


              Methodology

              Overall, in planning and performing the audit, we obtained an understanding of
              USAID policies and directives, applicable visa regulations, reviewed participant
              training files and data, and interviewed key Mission and contractor personnel. To
              understand TraiNet and the Visa Compliance System we talked with systems
              operators and administrators in both Bulgaria and Washington. We did not
              develop materiality thresholds for the audit objectives.

              In addition, to answer the first audit objective we reviewed 98 of USAID/Bulgaria’s
              participant training files for fiscal year 2002. This testing provided a 95 percent
              confidence level to determine if all required information and documents had been
              obtained and documented as required. We held discussions with pertinent Mission
              and contractor staff to determine, among other things, participant training and visa
              application procedures, policies, and responsibilities as well as management
              controls. We also reviewed USAID/Bulgaria’s guidance for participant training
              activities.




                                                                                               17
To answer the second audit objective we examined non-returnee data provided by
USAID/Washington for the period 1998 through 2003. We met with consular and
security officials from the United States Embassy in Sofia, Bulgaria to discuss visa
abuse issues by Bulgarian nationals in general. We also inquired if they had specific
information regarding USAID-sponsored participant trainees not returning to their
home country following training in the U.S. and, if there had been instances, had
appropriate action been taken.

To answer the third objective we met with officials responsible USAID/Bulgaria’s
participant training program, reviewed Mission guidance, and appraised the
Mission’s and their participant training contractor’s management and internal
controls.




                                                                                  18
                                                                                         Appendix II

Management
Comments
                                                                                   November 5, 2003



 ACTION MEMORANDUM


 To:                Regional Inspector General/Budapest, Nancy J. Lawton

 From:              USAID/Bulgaria Mission Director, Debra D. McFarland /s/

 CC:                USAID/Bulgaria MCRC Committee
                    Official Files

 Subject:           USAID/Bulgaria Written Comments on Draft Audit Report No B-183-03-00X-P
                    (Audit of USAID/Bulgaria's Participant Training Program (PTP) Activities)


 The Mission’s Management Control Review Committee (MCRC) reviewed the subject report in detail
 and agree with the findings and recommendations of the audit report. The Regional Inspector General
 (RIG) audit team, comprised of Jacqueline Bell, Geraldine Hopkins and Brad Moore, presented their
 findings and recommendations at an exit briefing for the USAID/Bulgaria senior management.
 USAID/Bulgaria also identified similar weaknesses during the FY 2003 Participant Training Program
 implementation and developed plans for improvements. Several corrective actions were implemented
 in late summer to respond to the Audit report recommendations and improve our compliance with the
 new requirements for participant training conducted in the United States.

 Recommendation No 1: We recommend that USAID/Bulgaria establish and follow procedures
 to ensure that individual application data is independently reviewed, approved and confirmed
 in accordance with USAID/Washington guidance.

 Action taken: As stated in the Audit report, even during the course of the Audit, USAID/Bulgaria
 modified their approval procedures to become compliant with Agency guidance. The Mission has
 now institutionalized the system for independent review, approval and confirmation of participants
 data by the nominated Mission Approvers on the basis of hardcopies of the relevant documents
 received from the local office of the Participant Training Contractor (PTPC) World learning (WL).
 The Mission Training Officer is further responsible for filing of the document packages and for
 maintaining a spreadsheet to track status of USAID/Bulgaria trainees. This new procedure is
 described in detail in the new Mission Order. (See attachments 1 and 2).




                                                                                                      19
Recommendation No 2: We recommend that USAID/Bulgaria conduct periodic management
reviews of its participant training implementing contractor and maintain written
documentation of these reviews in accordance with Agency Guidance.

Action taken: The CTO for the PTP Contract is located in Washington and the USAID/Bulgaria
Training Coordinator is the local Activity Manager. The official responsibility for maintaining the
official files and reports reside with the Washington-based CTO, so the local activity manager
maintains working files related to the daily Activity management. The new Mission Order, Section Q
formalizes the process of conducting periodic management reviews and their proper documentation.
Site visits and management reviews of PTPC documentation shall be done at least quarterly by the
Training Coordinator and/or other Program staff, and shall be properly documented through reports.
(See attachments 1 and 3)

Recommendation No 3: We recommend that USAID/Bulgaria develop and document Mission-
specific guidance that clearly defines the roles, responsibilities and procedures for Mission Staff
and Contractors involved in participant Training and Visa Applications.

Action taken: USAID/Bulgaria has updated the existing Mission Order (MO) to reflect the current
training guidance as per USAID ADS 253 and the USAID Complete Guide to Visa Compliance. The
Mission Order provides clear and detailed definitions and descriptions of the roles, responsibilities
and procedures for Mission staff and USAID implementers involved in the PTP and the Visa
application process. The draft MO was shared with WL/Bulgaria for comments, discussed at a
Mission-wide review on November 3, 2003 and subsequently shared with the USAID Washington
Training officer James Nindel, CTO for PTP and the PTP Advisor, Jeffrey Shahan. All relevant
comments were incorporated into the final draft, which was signed by the Mission MCRC and the
Mission Director on November 5, 2003. The procedures outlined in the Mission order were
immediately effective upon signature. (Note: The Program Officer cleared the final version, and will
sign the final version upon her return form Annual Leave.) (See attachment 1)

Based on the above described actions, USAID/Bulgaria believes that we have introduced and enacted
all necessary corrective actions and have taken all necessary steps to implement the management
decisions taken in response to the Audit. Therefore, we request closure of the Audit report
recommendations.


Attachments:
1. A copy of the new USAID/Bulgaria Mission Order and its Appendices on: Appendix 1)
   Summary of Roles, Responsibilities and Procedures of USAID and Contractor staff involved in
   PTP, and Appendix 2) The New Visa Application and Issuance process.
2. A copy of the spreadsheet for tracking status of USAID/Bulgaria participant trainees, as
   developed and maintained by the Mission Training Officer.
3. A Site Visit management review report dated October 7, 2003.




                                                                                                   20
Appendix III




          21
